<html>
<title> - PUBLIC ACCESS TO FEDERALLY-FUNDED RESEARCH</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







               PUBLIC ACCESS TO FEDERALLY-FUNDED RESEARCH

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2010

                               __________

                           Serial No. 111-114

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov

                              ______

                  U.S. GOVERNMENT PRINTING OFFICE
  64-928 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2010....................................     1
Statement of:
    Adler, Allan, vice president, Government and Legal Affairs, 
      Association of American Publishers; Steven J. Breckler, 
      Ph.D., executive director for science, American 
      Psychological Association; Ralph Oman, Pravel professorial 
      lecturer in intellectual property law and fellow, the 
      Creative and Innovative Economy Center, George Washington 
      University Law School......................................     9
        Adler, Allan.............................................     9
        Breckler, Steven J.......................................    23
        Oman, Ralph..............................................    31
    Lipman, David J., M.D., Director, National Center for 
      Biotechnology Information, National Library of Medicine, 
      National Institutes of Health, U.S. Department of Health 
      and Human Services.........................................   132
    Roberts, Richard, Ph.D., F.R.S., chief scientific officer, 
      New England Biolabs; Sharon F. Terry, president and CEO, 
      Genetic Alliance; Elliot Maxwell, director, Digital 
      Connections Council, Committee for Economic Development; 
      Sophia Colamarino, vice president, research, Autism Speaks; 
      David Shulenburger, vice president for academic affairs, 
      Association of Public and Land Grant Universities; and 
      Catherine Nancarrow, managing editor, Public Library of 
      Science Community Journals.................................    51
        Colamarino, Sophia.......................................    76
        Maxwell, Elliot..........................................    63
        Nancarrow, Catherine.....................................   102
        Roberts, Richard.........................................    51
        Shulenburger, David......................................    90
        Terry, Sharon F..........................................    58
Letters, statements, etc., submitted for the record by:
    Adler, Allan, vice president, Government and Legal Affairs, 
      Association of American Publishers, prepared statement of..    12
    Breckler, Steven J., Ph.D., executive director for science, 
      American Psychological Association, prepared statement of..    25
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Colamarino, Sophia, vice president, research, Autism Speaks, 
      prepared statement of......................................    78
    Lipman, David J., M.D., Director, National Center for 
      Biotechnology Information, National Library of Medicine, 
      National Institutes of Health, U.S. Department of Health 
      and Human Services, prepared statement of..................   135
    Maxwell, Elliot, director, Digital Connections Council, 
      Committee for Economic Development, prepared statement of..    65
    Nancarrow, Catherine, managing editor, Public Library of 
      Science Community Journals, prepared statement of..........   104
    Oman, Ralph, Pravel professorial lecturer in intellectual 
      property law and fellow, the Creative and Innovative 
      Economy Center, George Washington University Law School, 
      prepared statement of......................................    33
    Roberts, Richard, Ph.D., F.R.S., chief scientific officer, 
      New England Biolabs, prepared statement of.................    53
    Shulenburger, David, vice president for academic affairs, 
      Association of Public and Land Grant Universities, prepared 
      statement of...............................................    92
    Terry, Sharon F., president and CEO, Genetic Alliance; Elliot 
      Maxwell, director, Digital Connections Council, Committee 
      for Economic Development, prepared statement of............    60

 
               PUBLIC ACCESS TO FEDERALLY-FUNDED RESEARCH

                              ----------                              


                        THURSDAY, JULY 29, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Maloney, Chu, and Chaffetz.
    Staff present: Darryl Piggee, staff director/counsel; 
Yvette Cravins, counsel; Frank Davis and Anthony Clark, 
professional staff members; Charisma Williams, staff assistant; 
Marc Johnson, assistant clerk--full committee; Adam Hodge, 
press secretary--full committee; Justin LoFranco, minority 
press assistant and clerk; and Mark Marin, minority senior 
professional staff member.
    Mr. Clay. The subcommittee will come to order.
    Good afternoon, and welcome to today's hearing entitled, 
``Public Access to Federally-Funded Research.'' Without 
objection, the chairman and ranking minority member will have 5 
minutes to make opening statements, followed by opening 
statements not to exceed 3 minutes by any other Member who 
seeks recognition. And without objection, Members and witnesses 
may have 5 legislative days to submit a written statement or 
extraneous materials for the record.
    The purpose of today's hearing is to examine the current 
state of public access to federally funded research and to 
discuss the potential implications of increased access. Every 
year, the Federal Government, using taxpayer dollars, funds 
tens of billions of dollars in basic and applied research. Most 
of the funding is concentrated within 11 Federal departments 
and/or agencies.
    So while this is not a legislative hearing attached to any 
particular bill, there has been much interest, deservedly so, 
surrounding this topic on both sides of the issue of how much 
access should the public have to federally funded research, how 
would increased access affect grantees, researchers and 
scholars.
    To that end, I determined that the subcommittee should 
allow an atmosphere for dialog and discussion of public access 
to federally funded research. It is relevant, current and 
within the purview of this subcommittee. So today we will hear 
testimony from stakeholders in the areas of publishing, science 
research, education and patient advocacy.
    This hearing will also examine the operational processes 
utilized by the National Institutes of Heath in its open access 
program, including but not limited to the submission process, 
data usage, embargo time period and compliance information. We 
will examine how the National Institutes of Health has been 
affected by the congressional mandate to ensure that the public 
has access to the published results of NIH-funded research no 
later than 12 months after publication. What have been the 
results and ramifications, positive and negative, of that 
policy to the stakeholders?
    I thank all of our witnesses for appearing today and look 
forward to their testimony. I now recognize the distinguished 
ranking minority member, Mr. Chaffetz of Utah. Mr. Chaffetz.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chaffetz. Thank you, and thanks to the various 
witnesses that are here today. We appreciate your flexibility 
and understanding with all the votes and other hearings and 
things that are going on here prior to the recess. I appreciate 
your patience.
    And I appreciate your holding this hearing.
    I am looking forward to hearing the exchange from our 
witnesses. The extraordinary expansion of access to digital 
information over the past decade has caused heated debate to 
arise over the issue of public access to federally funded 
research results. The Federal Government funds billions of 
dollars in research every year, much of it in the form of 
grants to researchers.
    Typically, researchers write one or more manuscripts 
detailing the findings of the research in hopes of having them 
published as articles in scientific journals. Journal 
publishers subject these submitted manuscripts to a vigorous 
peer-reviewed process to ensure that the scientific results and 
conclusions are valid prior to selection for publication.
    In exchange for the costs associated with peer review, 
editing, publication of the manuscript, the researcher 
typically assigns his or her copyright to the journal 
publisher. Historically, Congress has directed that federally 
funded researchers retain expansive intellectual property 
rights, to encourage the advancement and distribution of 
scientific knowledge as widely as possible. This system has 
proven highly successful in allowing researchers from 
universities in the United States and across the world access 
to new and constantly evolving scientific information from 
which they can pursue new discoveries and innovations.
    There are now more than 25,000 peer-reviewed journals 
worldwide, produced by more than 2,000 publishers, ranging from 
the well-known, such as Nature or the New England Journal of 
Medicine to one of my own personal favorites, and I know 
something that all good Americans subscribe to, the Journal on 
Matrix Analysis and Applications, which publishes articles of 
interest to the numerical linear algebra community. You 
subscribe, don't you, Mr. Chairman? [Laughter.]
    I will share my copy with you.
    In the United States, the scholarly publishing enterprise 
provides direct employment for roughly 33,000 people.
    I am sympathetic to the arguments that proponents of the 
increased public and free access to federally funded research 
make regarding the rights of taxpayers to the results of that 
research. They paid for it, and they should be able to access 
the fruits of that research.
    However, journal publishers invest a significant amount of 
money and provide a valuable service to the scientific 
community and the Nation in peer-reviewed editing, publication 
and dissemination of researched articles. According to 
estimates made by the publishing community, the National 
Institutes of Health funded research results in approximately 
85,000 journal published articles annually. By the time a final 
peer-reviewed manuscript is completed, the point at which NIH 
requires submission under their current rules, publishers 
estimate that they have invested in excess of $1,400 per 
article, or roughly $126 million annually.
    I am concerned about the Federal Government mandating free 
access policies, such as the current one at NIH, that 
diminished copyright protections for private sector journal 
articles, also particularly with regard to some of the smaller 
non-profit professional organizations that publish only one or 
two journals. I am concerned about their ability to stay in the 
publishing game, and their willingness to invest in the 
vigorous peer-review process that currently makes our 
scientific enterprise so vibrant without strong copyright 
incentives.
    One thing I hope we all keep in mind, there are many 
alternatives to the type of policy currently employed at the 
National Institutes of Heath in which H.R. 5037, which has been 
referred to this subcommittee, would expand to other Federal 
research funding agencies. These alternatives policies would 
strike an appropriate balance between the taxpayer access to 
the results of federally funded research and the copyright 
incentives and protections of the publishers.
    For example, in the 2007 America Competes Act, Congress 
directed the National Science Foundation to develop a system 
whereby research reports, including readily accessible summary 
of the outcomes of the NSF-sponsored research, are disseminated 
instead of copyrighted materials for the publishers. Again, it 
is a complex issue. There are a variety of directions in which 
we can go.
    And thus, I think the hearing is very appropriate and I 
look forward to hearing from all of the witnesses today. I 
appreciate your preparation. And I assure you, given the 
schedule, all of the information will be properly reviewed.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Clay. Thank you, Mr. Chaffetz.
    If there are no more opening statements, I will now 
introduce our first panel. On this panel, we will hear from Mr. 
Allan Adler. Mr. Adler is the vice president of Legal and 
Government Affairs with the Association of American Publishers. 
Welcome.
    Our next witness will be Dr. Steven Breckler. Dr. Breckler 
is a graduate of the University of California at San Diego and 
received his masters and Ph.D. from Ohio State University. He 
is the author of numerous publications and articles in the area 
of psychology. He has served as an assistant professor at Johns 
Hopkins and as program director of the National Science 
Foundation. He is currently the executive director at the 
American Psychology Association. Thank you for being here.
    Our third witness will be Professor Ralph Oman. Mr. Oman 
teaches copyright law at the George Washington University Law 
School. He also serves as a fellow on the faculty of the Law 
School's Creative and Innovative Economy Center. Mr. Oman 
served as chief counsel for the U.S. Senate Judiciary 
Subcommittee on Patents, Copyrights and Trademarks. He is a 
graduate of Hamilton College in Georgetown University Law 
Center.
    I want to welcome all of you and thank you for being here 
today. It is the policy of the subcommittee to swear in all 
witnesses before they testify. Would you all please stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you . You may be seated. Let the record 
reflect the witnesses answered in the affirmative.
    Each witness will have 5 minutes to make opening 
statements. Your complete written testimony will be included in 
the hearing record. The lighting system in front of you will 
indicate how much time you have left. When it turns red, we 
would like for you to cease and desist.
    Mr. Adler, you may begin.

STATEMENTS OF ALLAN ADLER, VICE PRESIDENT, GOVERNMENT AND LEGAL 
    AFFAIRS, ASSOCIATION OF AMERICAN PUBLISHERS; STEVEN J. 
   BRECKLER, PH.D., EXECUTIVE DIRECTOR FOR SCIENCE, AMERICAN 
  PSYCHOLOGICAL ASSOCIATION; RALPH OMAN, PRAVEL PROFESSORIAL 
LECTURER IN INTELLECTUAL PROPERTY LAW AND FELLOW, THE CREATIVE 
AND INNOVATIVE ECONOMY CENTER, GEORGE WASHINGTON UNIVERSITY LAW 
                             SCHOOL

                    STATEMENT OF ALLAN ADLER

    Mr. Adler. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for inviting me to participate in this 
hearing on behalf of the Association of American Publishers, 
principal trade association of the U.S. book publishing 
industry, whose for-profit and non-profit members publish 
books, journals and other literary works in every field of 
human interest, both in print and digital formats.
    Relative to today's hearing, AAP's membership includes some 
50 for-profit companies and non-profit organizations that 
publish scientific, technical and medical journals in both 
print and digital formats. Because I have submitted a written 
statement for the record, let me just briefly identify a few 
key points.
    First, as we discuss federally funded research, you will 
hear references to peer-reviewed journal articles and scholarly 
publications as well as characterizations of those items as the 
results or products of federally funded research. Such 
characterizations, however, are not accurate, and they are 
particularly misleading in the context of today's discussion. 
It is critical that you keep in mind the distinction between 
federally funded research and the private sector journal 
articles that are written by the funded researchers to report 
and document that research.
    The peer-reviewed articles published in scholarly journals 
are not themselves funded researchers. Nor are they 
deliverables required under the terms of the funding grant, as 
are, for example, the annual progress reports that the research 
grantees typically require to submit to the funding agency.
    Instead, they are separate reports on the funded research, 
written with the express intention of publication in relevant 
peer-reviewed journals to describe and explain the process, 
findings and significance of the funded research that has been 
conducted by the authoring researchers. These are prepared for 
publication and ultimately published by peer-reviewed journals 
without funding from the Government.
    Second, the articles that are published in peer-reviewed 
journals are ultimately collaborative products of the 
researcher and the journal publisher, which devotes a 
substantial amount of its editorial and other publishing 
resources to ensuring that the final published version of the 
researcher's account is accurate and that its significance is 
understood within the context of other research in the same 
field or related fields.
    Journal publishers invest hundreds of millions of dollars 
in peer review, editing and publishing processes, including for 
sophisticated communications technologies and electronic 
resources, support personnel and many part and full-time 
editors. Publishers manage all stages of the peer-review 
process from the time the journal publisher receives a new 
manuscript until the final version is accepted for publication 
as a journal article. Each manuscript undergoes rigorous review 
by editors and technical experts prior to publication in a 
resource-intensive process that helps ensure the quality and 
integrity of these published accounts of scientific research.
    Government mandates, like the NIH Public Access Policy, 
which requires free online access to the author's final peer-
reviewed manuscript after acceptance for journal publication, 
expropriate, or in simpler terms, take without consideration 
the substantial investments that the publisher makes in 
providing added value to the researcher's original manuscript.
    And by doing so, they substantially weaken an area of our 
economy where the United States has a distinct comparative 
advantage over its competitors in global markets. Science and 
technology publishers based in North America account for some 
45 percent of all peer-reviewed scientific research papers 
published annually worldwide. For many U.S. journal publishers, 
over 50 percent of their revenues come from subscriptions 
delivered outside U.S. borders.
    But through mandates like the NIH policy, the government 
intervenes to become the de facto publisher of the articles and 
compete directly with the journal publisher in making them 
available for public access and distribution. Even worse, this 
unwarranted competition from the Government can lead to further 
harm to the publishers by facilitating digital piracy, as we 
have discovered with respect to evidence showing that companies 
in China are reselling and distributing these journal articles 
as downloaded from NIH's PubMed central data base without 
authorization from the publisher.
    While some may think such piracy is not the Government's 
fault, the simple reality is that in today's digitally 
networked world, the Government cannot presume to make these 
copyrighted works freely available online to the U.S. taxpayer 
without also giving them away free to the rest of the world, 
including competing National governments, public and private 
institutions, corporations and yes, pirates, all of whom, with 
the exception of the pirates, would otherwise probably acquire 
these works from the journal publisher by subscription.
    If someone can get these articles for free on a Government 
Web site, why would they pay to subscribe to journals? Surveys 
have shown that a significant number of librarians would be 
likely to cancel their institutional subscriptions to journals 
if the articles contained in them were accessible online for 
free, even if the articles were not available for a year, and 
even if not all the articles in the journal were available 
online.
    Thus, mandates like the NIH policy also undermine copyright 
protection for journal articles, and diminish incentives for 
publishers to continue making substantial investments in 
managing the peer review process and otherwise improving 
scientific communications and providing and maintaining non-
Government public filtered records of federally funded 
research. Mr. Chairman, there are better approaches to 
enhancing public access to the results of federally funded 
research.
    [The prepared statement of Mr. Adler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much for your testimony.
    Dr. Breckler, you are recognized for 5 minutes.

                STATEMENT OF STEVEN J. BRECKLER

    Dr. Breckler. Mr. Chairman, members of the subcommittee, I 
am Dr. Steve Breckler, executive director for Science of the 
American Psychological Association.
    APA is the largest scientific and professional association 
of psychologists in the United States. We are the world's 
largest association of psychologists, with over 150,000 
researchers, educators, clinicians, consultants and students as 
members. APA is also the largest publisher of behavioral 
science research, with 56 of the premier scholarly journals in 
the field of psychology.
    The mission of APA is to advance the creation, 
communication and application of psychological knowledge to 
benefit society and to improve people's lives. APA strongly 
supports the goal of public access to federally funded 
research.
    What is not clear, however, is the best way to accomplish 
the goal. The methods implemented to date, and the ones 
currently under most active consideration, do not necessarily 
represent the best possible methods. In fact, some carry 
substantial risk of harming scientific scholarship and actually 
impeding our ability to accomplish the ultimate goal of 
enhancing public access to federally funded research.
    As a citizen and as a scientist, I take enormous pride in 
American science. I think we all do. We are the stewards of the 
world's strongest and most vibrant system of scientific 
research and scholarship. The last thing that any of us wants 
to do is to harm or otherwise weaken American science. Our 
Nation's most serious investments in science began over 60 
years ago. It was recognized then that the Federal Government 
was in the best position to provide the financial resources to 
support science and research in this country. It was also 
recognized then that the private sector and the non-profit 
scholarly societies were in the best position to manage the 
publication and dissemination of research results in this 
country.
    The Federal Government did not want to get into the 
scholarly publishing business, nor did society demand it. 
Indeed, it has always been the opposite, of maintaining a 
separation between the Government and the final production of 
scholarship, of protecting academic freedom and allowing 
scholars in this country to do their work without Government 
interference. The success of American science can be traced to 
this formula, to this division of responsibility and management 
of the scientific enterprise. It has served us extremely well.
    And now for a variety of reasons that really have nothing 
to do with scientific achievement and advancement, some among 
us want to change the formula. Change can be a good thing. But 
it should be well-reasoned and thoroughly researched before 
wholesale implementation. A mistake could mean irreparable 
damage, an outcome that none of us wants.
    I have provided detail in our written testimony about some 
of the potential risk of poorly developed public access 
policies. Scholarly publishers add tremendous value to the 
communication and dissemination of science. And we invest 
enormous resources in the process. Yet the current public 
misunderstanding is that those costs are either inconsequential 
or that the Government already bears those costs. Neither is 
true.
    Alternative models for public access exist. NSF, for 
example, requires its investigators to submit their final 
project reports and citations to published research documents 
resulting from their research for posting on the NSF public Web 
site. This is consistent with the fact that taxpayers are 
paying for the research results, not for the publications.
    APA suggests that the current situation offers the 
opportunity to conduct a natural experiment to evaluate the 
various public access models currently in place. This 
opportunity was recognized by OSTP when it noted in late 2009 
that the NIH model has a variety of features that can be 
evaluated, and there are other ways to offer the public 
enhanced access to peer-reviewed scholarly publications.
    Indeed, in its implementation of a public access policy, 
NIH assumes that 12 months provides a sufficient embargo period 
to allow publishers enough time to recoup their investment. Yet 
as the data we provided in our written testimony demonstrates, 
12 months is clearly too short a time for many publishers, 
especially those in the social and behavioral sciences, to 
recover even a fraction of their investments. In APA's 
experience, less than 16 percent of the ultimate usage of a 
journal article occurs within the first 12 months of 
publication.
    We can do better. We need to bring all stakeholders to the 
table to develop a viable system of public access, one that 
makes federally funded research accessible to the public, but 
without sacrificing or harming the various scientific 
infrastructure supported by the Federal Government and desired 
by the public. This was the recommendation of the OSTP 
scholarly publishing roundtable, and it is the basis for the 
provision of the COMPETES bill currently working its way 
through Congress to establish an interagency working group on 
public access.
    APA supports these recommendations, but we emphasize the 
need to include the perspective of scientific societies that 
publish social and behavioral science research. When it comes 
to policies surrounding public access to federally funded 
research, we must be thoughtful and careful and willing to take 
the time and make the effort to do it right. Otherwise, we run 
the real risk of reducing, rather than increasing, public 
access to federally funded research and of causing long-term to 
America's science and technology infrastructure.
    Thank you.
    [The prepared statement of Dr. Breckler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. Breckler, for your 
testimony.
    Professor Oman, you may proceed.

                    STATEMENT OF RALPH OMAN

    Mr. Oman. It is a great honor to be here today. Mr. 
Chairman, I am not necessarily a stakeholder here. I am 
appearing as the former Register of Copyrights of the United 
States. I, as always, represent the public interest.
    I don't represent any of the parties. But like an old fire 
horse, I hear the bells ring and I am off and running to 
protect the U.S. copyright system.
    I am concerned that the new public access proposals that we 
have before us will in fact weaken the commercial market for 
scientific, technical and medical journals. If the publishers 
of these journals eventually get out of business because they 
can't make it pay, we will lose a very valuable tool for 
scientific advance. If sales plummet, how can the publishers 
continue to publish? I suppose that is the issue that we have 
to answer today, whether or not that dire prediction will in 
fact come true.
    I urge Congress to develop a public access policy that 
respects the spirit of the copyright law. The patent and 
copyright clause of the Constitution urges Congress ``to 
promote the progress of science and the useful arts.'' 
Summarizing the rest of the provision, ``by giving authors and 
publishers an exclusive right in their writings.'' With that 
powerful incentive direct from the Constitution to 
commercialize their journals, the publishers will reach as 
broad an audience as possible for these important publications.
    The tension between authors and inventors who benefit from 
Government research grants on the one hand and the advocates of 
Government ownership of the fruits of that research on the 
other has been with us for a long time. I worked on the Bayh-
Dole legislation back in 1980 for my old boss, Senator Mathias 
of Maryland. In that debate over patent policy in 1980, Senator 
Russell Long of Louisiana argued that any patents developed 
with Government research funds should be owned by the 
Government. In his inimitable style, he thundered, ``We paid 
for it, we own it.''
    Senator Bayh and Senator Dole reasoned that the taxpayers 
would get a far greater return on investment if we instead 
facilitated private sector ownership and commercialization of 
these patents, putting the inventions to work for the American 
people, creating jobs and helping American competitiveness. 
They won that argument and the Small Business and University 
Patent Procedure Act has given American innovation a big boost 
around the world.
    The same policy arguments apply here, Mr. Chairman. For all 
the reasons mentioned by Mr. Adler and Dr. Breckler, I do not 
think that the Government should get deeply involved in 
scholarly publishing. It is a bad for a free enterprise economy 
with our tradition of free speech. With normal copyright 
protection, the private sector publishers will run the peer-
review process, they will select the articles, they will 
aggressively market those publications to corporations, to 
libraries, to research institutions. That is the American way. 
A broad, free public access policy is an unfortunate precedent 
for a country like the United States whose great strength in 
foreign markets is intellectual property.
    I spent more than 8 years of my life as Register of 
Copyrights, fighting to protect American authors and publishers 
from foreign pirates. I find it a little strange today that 
Congress may now decide to give away some of that intellectual 
property free of charge. The pirates must feel vindicated.
    There is a huge foreign commercial market for these 
publications and a free access policy would cost the United 
States millions of dollars that we now get from rich foreign 
governments and large foreign corporations. As Senator Mathias, 
my old boss, once said, ``talk about Uncle Sap.'' It is like 
standing on the coastline and shoveling buckets of greenbacks 
into the ocean. We are the only country, as far as I know, to 
have such a give it away for nothing policy.
    I hope Congress will give the evolving digital marketplace 
a chance to come to grips with the new online technologies 
without undercutting the incentives that publishers have relied 
on for 200 years. We all have compassion for the parent of a 
sick child with a rare disease, wanting to have quick and easy 
access to articles explaining the latest state-of-the-art 
therapies. Let's solve that problem of patient access without 
doing damage to the incentives provided by copyright. Let's all 
sit down and reason together and figure out how to get the job 
done.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Oman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Professor Oman. And we will now move 
to the question period for Members and proceed under the 5-
minute rule. We will begin with Mr. Chaffetz for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman. I appreciate it.
    One of the things we are looking at is H.R. 5037. And one 
of the things that would happen under that piece of legislation 
is that it would shorten the time, the embargo time, from 12 
months to 6 months. Can you give me a sense of the impact that 
you would see of moving from 12 months to 6 months? I will give 
you a brief time, but I only have 5 minutes, so I have to go 
swiftly. We will start with Mr. Adler.
    Mr. Adler. Congressman, the fact of the matter is, we have 
argued all along, there is no one size fits all embargo period 
that will make sense in journal publishing across the diverse 
economic models that exist for publishers. What might work with 
respect to a large commercial publisher doesn't necessarily 
work with a not-for-profit society publisher or a patient 
advocacy organization which publishes a journal not so much in 
the same way that a large commercial publisher would looking 
for profits, but simply to help generate additional funds to 
support some of its other patient advocacy activities.
    So the situation here is that if you have a journal that 
publishes on a schedule that is quarterly, annual, as opposed 
to one that publishes every month, the idea that an embargo of 
6 months is going to work adequately for all of them simply 
makes no economic sense.
    Dr. Breckler. That is correct. In the case of social and 
behavioral science, where the shelf life of new articles is 
actually quite long, much longer than in other fields of 
science, we have suggested on the basis of our data that 12 
months is too short, 6 months would probably be devastating. It 
would hurt the circulation of the journal articles, and it 
would also create a perverse, sort of unfair advantage for 
federally funded research.
    We pride ourselves at APA journals in publishing a 
substantial number of articles that are not funded by the 
Federal Government. It is a wonderful thing. It encourages 
scholarship and it increases productivity. But if you put 
journal articles out there for free, in 6 months it creates a 
disincentive for people to purchase the journals, and it drives 
down the ability for non-funded investigators to get their work 
published and to be seen.
    Mr. Chaffetz. Professor Oman.
    Mr. Oman. The incentives to publication are weakened 
considerably by the 12-month publication requirement. Six 
months would effectively destroy the market for those journals, 
in my opinion.
    Mr. Chaffetz. One of the more compelling arguments for 
increased public access are these patient groups. You touched 
on it at the end of your testimony, Professor. How do you 
address that? What is the answer to that? How do you go back to 
these patient groups and say, look, we want to get this 
information as swiftly as possible, I don't care what your 
financial model is, we have to save lives here?
    Maybe Dr. Breckler, we could start with you and then Mr. 
Adler.
    Dr. Breckler. That is absolutely correct. We have 
maintained all along that we would like to sit down with all of 
the stakeholders and work out a viable system for everybody, 
rather than having the Federal Government mandate one 
particular model that happens to be in favor of one 
particular----
    Mr. Chaffetz. I guess that is the issue. If there is 
something we could get everybody to agree on, I would like to 
see that. But is there any, is there progress toward that? Is 
there any suggestion of that? Is there anything that has come 
close to that?
    Dr. Breckler. Absolutely. The publishers are already, have 
always been at the leading edge of innovation in these kinds of 
things and are working with all kinds of groups to make 
available the relevant articles, to put them in repositories, 
to identify the ones ahead of time that are of greatest 
relevance, to do all kinds of things to increase the 
accessibility and availability of them.
    Mr. Chaffetz. Mr. Adler.
    Mr. Adler. That is correct, Congressman. The publishers 
have been working with patient advocacy organizations in the 
past few years, for example, to create something called Patient 
Inform, which is an online service that provides patients and 
their caregivers access to some of the most up to date reliable 
research about the diagnosis and treatment of specific 
diseases, and does so at no cost to them.
    Patient Inform also helps to interpret the research and 
provides access to additional, more easily comprehended 
materials that help explain diagnosis and treatment. At the 
same time, many publishers individually have their own programs 
for providing access to patients, including walk-in clauses, as 
they are called, in their licenses, that enable libraries that 
subscribe to their journals to give any member of the public 
free electronic onsite access to those journal articles.
    Mr. Chaffetz. Thank you all. I appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Clay. Thank you.
    I now recognize the gentlewoman from California, Ms. Chu, 
for 5 minutes.
    Ms. Chu. Thank you, Mr. Chair.
    Dr. Oman, in your testimony you wondered if the Government 
will commandeer the rights of creative pre-existing materials 
that submitted articles may contain. I have three questions 
about that.
    First, how often do articles contain materials that the 
researcher does not already own? And second, do publishers 
always clear these rights for the author? And third, why would 
publishers not continue to provide this service under an open 
access policy?
    Mr. Oman. I think they would continue to provide those 
services if they were still in business and could make a go of 
it commercially. The danger is, of course, that they won't 
remain in business and they won't be available to make those 
valuable services in polishing and shaping and preparing the 
article for public dissemination.
    I probably should defer to the publishers on that point. 
But it is my view that the system that we have now in terms of 
giving copyrights to the authors, to the publishers, is the 
best way of encouraging the dissemination of this material and 
having those valuable services added on to the raw manuscript 
that is produced by the Government-funded researcher.
    Dr. Breckler. If I can respond also, I am not in the 
publishing end of APA, but I do know enough about how things 
work. That is an example of the kind of value added to 
scientific publications, to check those things and to give 
credit where credit is due. It takes time, it takes staff. It 
takes work to do that. It takes money to do that and to do it 
well.
    It is just another example of the many, many things that 
consume resources to bring to the market high quality 
scientific publications. That is the kind of thing--APA 
wouldn't publish articles without checking those kinds of 
things and taking care of those kinds of things, ever. But we 
have to take into account the economic reality of what it costs 
to do that.
    Ms. Chu. Dr. Breckler, in fact, I wanted to ask about APA, 
as a psychologist myself, and former member of the American 
Psychological Association, I understand that our field is 
different from other scientific research disciplines. Can you 
explain how the NIH public access model uniquely affects 
psychology compared to other disciplines? I know in your 
testimony you talk about 15 percent of lifetime use occurs in 
the first year. I wonder if that is unique to our discipline or 
whether it is similar to other ones.
    Dr. Breckler. Sure, a couple of comments. We don't have 
ready access to the data from other disciplines, so we can't 
really speak for them. But we thought a lot about what those 
data mean and why it is that the uptake is spread over such a 
long period of time. I think it has something to do with the 
nature of the publications and how focused those publications 
are. Are they little, incremental advances in very technical 
areas, which is common in some fields of science? Or are they 
big, sweeping things that take years to develop and have years 
of impact and so on.
    The social and behavioral sciences probably fall into that 
latter category most of the time. They are not small, 
incremental, technical answers to small, technical questions. 
They tend to be much broader in scope, which would also be true 
in other areas of social and behavioral science. So the risk in 
the context of NIH, of course, is that NIH funds areas of 
science across the board. They fund physics and chemistry and 
microbiology, in addition to psychology and sociology and 
anthropology and other fields.
    So to put them all in the same basket and to assume that 
they all have the same models and the same processes and the 
same outcomes and so on is a terrible mistake.
    Ms. Chu. Mr. Adler, I can definitely understand the 
concerns of publishers about the significant investments that 
you have made in reviewing, accepting and publishing scientific 
journal articles. The numbers are not trivial. However, what I 
also know is that without the American taxpayer, who funded the 
research, you wouldn't be able to publish such articles. Which 
is more important, the publisher's investment or the taxpayers 
who have paid more than $60 billion annually in just biomedical 
research alone?
    Mr. Adler. I don't believe there is an either/or choice 
there. The fact of the matter is that to say that publishers 
have an advantage because they are able to publish materials 
that are about something that the Government has funded, well, 
in our country we hope that publishers always, whether they are 
newspaper publishers, magazine publishers, book or journal 
publishers, will be able to publish about the activities of the 
U.S. Government and not feel that they owe a bill to the U.S. 
Government for the right to do so.
    In this case, we are trying to distinguish very clearly 
between the Federal research, the research activity which the 
Government does fund, and then the subsequent account of that 
research by the researchers, describing and explaining the 
research activity which the Government doesn't generally fund. 
The publisher funds that.
    So we think that there is a natural relationship here. It 
is one that has existed for years. Frankly, it wasn't until the 
advent of digital network technology allowed for the ability of 
this type of material to be so easily accessible and to be so 
distributed so quickly around the world that anyone even second 
guessed whether or not there was a problem in that 
relationship.
    Ms. Chu. Thank you. I see my time is up, and I yield back.
    Mr. Clay. Thank you, and I thank the gentlewoman from 
California.
    The gentlewoman from New York, Mrs. Maloney, is recognized 
for 5 minutes.
    Mrs. Maloney. I thank the chairman for having this hearing. 
I think it is an important one, and I think it raises a great 
deal of important problems and challenges for the 21st century. 
Certainly, patients dealing with an illness or their families 
certainly want to know as much as they possibly can about the 
illness and to have all the valuable research so that they can 
know what is happening.
    And at the same time, the Federal Government, the taxpayers 
have invested in this research and it is intellectual property 
that belongs to the United States. And the copyrights belong to 
the Untied States. And the publishers have invested in it. So 
it is an American product that if you open it up to everyone, 
meaning patients, but also I would say Vietnam, China, the 
entire world, that would like to take this information and 
immediately use it for their own purposes.
    I feel that one of the challenges that we have as a 
government for our people and for our taxpayers and for our 
future is how we hold on to our intellectual property. That is 
the one thing that we continue to produce that is incredibly 
valuable. But if everything we produce is immediately made 
available to the entire world, so that American workers, 
American companies, cannot take advantage of it, then we are 
going to be economically disadvantaged to a greater way.
    I think that what I would like to ask all of the panelists, 
and I will begin with Mr. Adler and then go down to Mr. 
Breckler and Professor Oman, is I think that we need to take 
another step, not only to protect, to protect the intellectual 
property. You are talking about publishers, but it goes broader 
than publishers. It is intellectual property.
    We should have a way that we can let American citizens read 
about information on the latest research on diseases in a way 
they can understand it. As one whose father died of 
Parkinson's, I was reading everything I could find on 
Parkinson's. There is a great deal of research done on 
Parkinson's. And reading these scientific documents, for 
someone who is not a scientist and not a doctor, it is very 
difficult.
    So I think you have a two-pronged approach; No. 1, to put 
the information in a form that the American public can 
understand and that is usable. But at the same time, if we 
don't protect our intellectual property, then I fear for the 
future of our country, quite frankly.
    Another item, we are talking about taxpayer-researched 
projects. But we also have a great deal of investment from the 
private sector that goes into the latest research that patients 
should have access to. But also, I represent a research 
industry, I represent major drug companies, major hospitals 
that do research. And they have basically told me, if we can't 
control our intellectual property, they are not going to 
continue investing in this.
    So I think that, and we cannot afford, as a country that 
now has a huge deficit and a huge debt, we can't afford to keep 
spending, yet the strength of our country is research. We need 
to continue investing in research, but we have to hold that 
research. Otherwise, it is really detrimental to us. We pay for 
everything and then within 24 hours, other countries feel like, 
``well, why should I ever do any research? I can just steal it 
from America.''
    I think that we need to take another step, legislatively or 
in some way, with the executive orders, to protect this 
intellectual property. Otherwise, the private sector is not 
going to do it. Publishers aren't going to publish it if they 
can't get some profit out of it. We are a profit company. 
Unless we want to have Government doing everything, which we 
can't afford to do, we face a new, innovative approach, a 
problem that we need a new solution to, where we can allow 
patients and their families to learn about things.
    But we have to protect our intellectual property. And if we 
don't, then the private investment is not going to be there, 
whether it is a research facility or a publisher or whatever. 
So we need to have incentives for the private sector to be 
involved. And we also have the challenge of how do we get this 
out to the public that are Americans, not to pirates who then 
are going to sell it or produce it.
    I think that is a huge challenge for the future of research 
in this country. And if you look at it, what has made this 
country great, I would say it is our research and our 
intellectual property. But if we can't hold on to our 
intellectual property, then I fear for the economic future, 
quite frankly, of American workers.
    So I think there is a huge challenge here, and I would like 
to start with Mr. Adler and go down the line and see if you 
have any answers to it. How can we make information available 
that is, and user-friendly to patients and their families, but 
at the same time protect the intellectual property so that 
pirates don't use it and that the incentive is there for 
private investment, private research, private publishing? If 
publishers can't get something out of it, they are no longer 
going to publish it, then the Government has to publish it.
    And quite frankly, what we are being told is ways to save 
money. So I just throw that out to our panelists and see if you 
have any creative ideas of how to approach this.
    Mr. Adler. Well, Congresswoman, on this particular issue, 
there is a piece of legislation that has been introduced and is 
pending in the House Judiciary Committee by Chairman John 
Conyers, as you may know, called the Fair Copyright and 
Research Works Act. What that legislation would simply----
    Mrs. Maloney. What number is that? Do you have it, the 
number of that bill? I can look it up, never mind.
    Mr. Adler. I am not sure.
    Mrs. Maloney. What does the bill do?
    Mr. Adler. What the bill basically would say is that if you 
were dealing with research funding for a particular project, 
where part of the funding comes from someone other than the 
Federal Government, and you are talking about extrinsic 
products, things that are derived from that research, or as you 
characterize it, are about that research that also have 
substantial added value coming from people other than someone 
who is contracted with the Government and been funded by the 
government as part of the research grant, then the Government 
would not be permitted to take the type of position that has 
been taken by the NIH under its policy of saying that the 
Government agency, because it funded the research, now has the 
right to distribute these articles that simply describe and 
explain the research, which were not funded by the Government 
agency, but can be distributed by the Government agency in 
competition with the publisher, based solely on the fact that 
the Government funded the research activity.
    We think that piece of legislation would not interfere with 
research funding activities by the Government. It would only 
make the Government make decisions about when it is appropriate 
for the Government to decide that the research that it is 
funding is intended to derive specific products and results 
that only the Government will be able to control. As opposed to 
allowing the kind of information which comes out of this 
research, most of which, after all, is factual, it is not even 
subject to copyright protection, to be utilized by anyone that 
wants to be able to either make a living by publishing reports 
and accounts of this research or by explaining the research, 
whether as a reporter on a science beat for a newspaper or any 
other basis of disseminating this information.
    We also think that, we have been talking with a U.S. trade 
representative and the Commerce Department about the fact that 
as they go around the world and engage in bilateral 
negotiations with many of our trading partners and try to make 
sure that U.S. intellectual property is protected under those 
agreements, that they take a look at what the Government is 
doing in this instance and see whether in fact this goes 
completely against the general tenor of what this 
administration has been trying to accomplish through such 
efforts.
    Mrs. Maloney. Thank you.
    Mr. Breckler.
    Dr. Breckler. Thank you.
    The concept of intellectual property is an interesting 
thing in the scientific and research community. And generally I 
think it is safe to say that scientists and researchers want 
their work to be read, they want it to be seen as broadly as 
possible, the more the merrier. So they don't want impediments 
to the ability for their work to get out there around the 
world. I think that is generally true globally.
    But what scientists and researchers do want is mainly three 
things I think. One is that they want to retain credit for 
their intellectual work. They want to be given credit and be 
cited for their work, and they don't want it republished under 
somebody else's name and so on. So they want that kind of 
thing.
    The second thing is that they want to control the fate of 
their work, the fate of their publications. And the third, and 
this is the most important thing for the purpose of this 
discussion, is that they rely on a signaling mechanism that 
helps to sort out the really good work from the less good work. 
I won't call it poor work. They need a signaling mechanism that 
says, this is a good article, this is a quality piece of 
intellectual property, we should pay attention to it.
    And it is precisely that signaling mechanism that the 
publishing industry provides through peer review and rigorous 
selection of articles for publication, we know that in our high 
quality prestige journals, which are the ones that we are 
talking about here, if you have an article there, it means 
something important.
    How many of us have children now, or grandchildren, and we 
spend a lot of time trying to teach them how to sort through 
what means something and what doesn't mean something on the 
Internet? It is hard to tell. There are few signaling 
mechanisms. Because it all looks legitimate.
    What the scholarly publishers bring to the table is 
legitimacy to the process. Anything that destroys that 
legitimacy is a loss for science.
    Mrs. Maloney. Yes, Professor? Any comments, Professor?
    Mr. Oman. After your stirring endorsement of the virtues 
and values of intellectual property, I have nothing to add. 
Thank you.
    Mr. Clay. The gentlewoman's time has expired.
    Let me go to Mr. Adler. To recoup costs, have the 
publishers considered offering access to titles and charge a 
nominal fee for downloading the full article? Much like music 
and movie Web sites.
    Mr. Adler. Certainly. That is within the purview of every 
publisher, whether it is a for-profit or not-for-profit, to 
consider in terms of its own business model. And that is 
exactly the way the system should work.
    What we are talking about here is whether the Government 
should be putting its thumb on the scale and essentially 
coercing a particular business model because the Government 
believes that in doing so, it is enhancing the ability of the 
public to learn about research that the Government has funded 
as if there was no other way for that to be accomplished.
    There is nothing that prevents the funding agencies from 
releasing, for example, the annual progress reports that the 
funded researchers are required to provide to the funding 
agency. There is nothing preventing these agencies from having 
staff people who help to translate into common layman's English 
what the import of funded research is.
    And in an agency like the NIH, for example, which is 
perhaps the most well-funded of all science research agencies 
in the world, they certainly have ample resources to find other 
ways of informing the public about the importance of the 
research they funded than by competing directly with journal 
publishers, using a version of the journal publisher's own 
acquired articles.
    Mr. Clay. Now, do you or any of the other panelists have 
any data on how a publisher would go out of business as a 
result of increased access? Anybody? Any data compiled on that?
    Mr. Adler. It is difficult, Mr. Chairman, to get data about 
that. Because again, this isn't shutting down publication by 
these publishers completely. What it is doing is it is making 
it difficult for them to recover some of the investment they 
make in certain articles, for which part of that investment 
gets apportioned. Because those articles happen to be the ones 
that are funded by the Government agency and subject to this 
type of policy.
    The real question that needs to be asked though is, is 
there any substantial deficit in the public's ability to learn 
about important research that is funded by the Federal 
Government. We in the publishing community don't believe there 
is. And if there is a deficit, it is simply due to inaction by 
the Government to take any number of courses that it could take 
to provide alternative ways for the public to learn about and 
understand what kind of scientific research the Government is 
funding.
    Mr. Clay. And along those same lines of questioning, and I 
guess we will ask Professor Oman this one, if the NIH policy 
conditions its grants of funding upon the researchers's 
agreement to make publicly available the article in 1 year, 
where is the copyright issue? Can't the researchers choose 
another avenue and not accept the NIH funding?
    Mr. Oman. It is really a difficult choice for the 
researchers. Obviously, professionally, a grant from the NIH is 
a very prestigious achievement. And if the author and the 
publisher have to dedicate their publication or the manuscript, 
anyway, to the public domain, that in their view probably would 
be a small price to pay.
    But if ultimately what happened is this prestigious journal 
that they were so proud to get published in had to shut down 
and go out of business, maybe they would have second thoughts 
about abandoning their copyright in exchange for the money.
    Mr. Clay. Let me ask, to help me understand better, are the 
edits or additional texts written by the publishers after peer 
review or the grantees?
    Mr. Oman. I should defer to the publishing representatives. 
But my understanding is that in fact, it is a continuing 
process. The publishers are involved with the author from the 
beginning in terms of giving them ideas, suggesting 
improvements to the text, consulting with other experts. They 
have experts on their own staff. And they do the formal peer 
review and then help the author incorporate those suggested 
improvements into the manuscript. So it is a continuing 
process.
    Mr. Clay. So throughout the process, then, they get a 
copyrightable attribute?
    Mr. Oman. Yes. They make a copyrightable contribution to 
the authorship, which is protected by copyright.
    Mr. Clay. Thank you.
    Is that how you view it, Dr. Breckler?
    Dr. Breckler. Yes, that is correct. And if I can clarify, 
the concept of grants, which is what most of the external 
funding at NIH and NSF and some of the other agencies is about, 
is designed to create an incentive and a motivation for the 
researchers and the scientists to take ownership of their ideas 
and their thoughts and the results of the research.
    The intellectual work that goes into publications belongs 
to that scientist. It does not belong to the Federal 
Government. That is the whole spirit of a grant. And it is one 
of the reasons why science in this country thrives, why it is 
so successful. These aren't necessarily contracts or works for 
hire. The whole scientific research system works this way, and 
it spurs creativity and rapid advancements and so on.
    So the intellectual property really is vested in the 
investigator, not in the granting agency.
    Mr. Clay. Have you considered a business model wherein the 
publisher charges the author a fee for publishing and what 
would be the positives and negatives of such a model?
    Mr. Adler. There are many publishers that do utilize that 
model. Some of them use it in conjunction with other models. 
They still continue to obtain revenue through subscribership at 
the cost and charges to the end user of the material.
    The fact of the matter is that if you are going to be 
basing it, your ability to recover your investments and 
continue to make investments on whether or not the authors who 
bring you manuscripts are going to be able to pay for the 
$4,000 which roughly goes into the processing and handling of 
every article that is published by a peer-reviewed journal, you 
are going to have to be sure that those authors come to you 
with the wherewithal to be able to afford that.
    The publishers really don't necessarily want to see authors 
being constrained and have to use either part of the money that 
they could otherwise use for research or have to go some place 
else to find additional money in order to get these articles 
published. We believe that having the people who make use of 
these articles, particularly when many of those readers are, as 
we have suggested to you, corporate institutions that use it 
for their own commercial research and their own products and 
services, or national governments, or health-related 
institutions that use it in furtherance of their own missions, 
we don't see why those end users shouldn't ultimately have to 
pay for that use.
    Mr. Clay. A final question. What timeframe would be an 
acceptable embargo time period in order for publishers to 
recoup their investment? Anyone on the panel can take a stab at 
it.
    Mr. Adler. As I said to you before, Mr. Chairman, we 
honestly believe that after discussing this, and this 
discussion has now gone on for a number of years since the NIH 
first proposed its public access policy as a voluntary policy, 
that there simply is no single standard that can apply across 
the board to all of the different business models and 
commercial and not-for-profit publishers in this field. Each 
one of them has to determine, with respect to their own 
investments, their own publishing schedules, their own need, to 
utilize fees and subscription fees that come in from these, to 
continue their publishing activities, in order for them to 
decide what would be an appropriate embargo period.
    The real question to ask is, is that an appropriate task 
for the Government, to be determining what an embargo period 
should be before this material, which is under copyright, 
transferred by the author to the publisher, now gets to be made 
freely available around the world by someone else.
    Mrs. Maloney. May I ask another question?
    Mr. Clay. Yes, let me just see, does Dr. Breckler, do you 
have an opinion about embargo time period?
    Dr. Breckler. What Mr. Adler said is correct. I think 
ultimately, if everybody could agree to come to the table and 
discuss this, we could agree on some methods for determining 
what the appropriate embargo period would be. This is one of 
the reasons APA is looking at its own journal, so that we can 
make a determination of what a fair embargo period would be.
    Mr. Clay. So each Federal agency could decide that a 
different embargo time period?
    Dr. Breckler. What I would suggest is that the variables 
that will determine that is more than just what the agency is 
or what the agency happens to fund. Because it depends a lot 
also on the particular discipline of funding. NSF funds things 
from physics to social psychology. It depends on the format of 
the journal and so on.
    Mr. Clay. Professor, any comment?
    Mr. Oman. I just wanted to add that perhaps a blanket 
approach isn't necessarily the best approach. You might want to 
have immediate access for patient access for people who are 
private citizens, who are looking for an answer to a question 
at 3 a.m., when their child is ill, and a normal copyright 
protection for the rest of the world. I think the system can be 
nuanced enough with digital technology to achieve that purpose 
without destroying the fabric of copyright.
    Mr. Clay. Thank you. Thank you all for your responses.
    Mrs. Maloney, you are recognized.
    Mrs. Maloney. Thank you. I think that is an interesting 
statement, Professor Oman. But I don't know how you could 
protect the copyright. Because someone could just log in 
through a friend and have it.
    I would like to frame another question. I have strongly 
supported a citizen's right to Government information. In fact, 
I am very proud of having authored the Electronic Freedom of 
Information Act of 1996. It was probably the biggest access to 
Federal archives and Federal information and required it 
electronically. I probably have gotten more awards as a 
visionary legislator on that piece of legislation that allows 
the public to have access to this information.
    I also authored the Nazi War Crimes Disclosure Act, which 
was the largest unveiling of CIA documents probably in history.
    But I am concerned that in looking at the issue of public 
access to federally funded research, we have to be careful to 
protect the intellectual property, particularly since we live 
in such a competitive world. At one time, we were competing 
with another State or another business. Now we are competing 
with China, India, Vietnam and who knows, another emerging 
country that may emerge soon.
    So we are competing with jobs and in every way. I think 
that we as a Government need to protect the taxpayer dollars in 
this research. And a scientific publisher likewise, whether it 
is for-profit or non-profit, or even a Government publisher, 
has the right to protect their work product. We need to be 
careful as we look at this issue. I think it is a very 
complicated one. And I think we need even more of an answer 
than Mr. Conyers has put forward, as explained to me by Mr. 
Adler.
    I would say that some proponents of public access to 
federally funded research call for putting a final manuscript 
online immediately. Some say 6 months, some say after it is 
accepted for publication. But this article, in many ways, goes 
far beyond federally funded. As one who just recently wrote a 
book, it is not that easy. You present a manuscript, your 
editors look at it, everybody comments in the world on it, they 
refine it, they take time to look at this.
    So what finally is printed is not, at least in the case of 
my book, there were a lot of hands going into it and suggesting 
it could be done in a clearer way, a better way, and why didn't 
you add this and add that. I would say that is the way all 
publishing is, whether scientific or a book or whatever. You 
have publishers, you have researchers, you have fact checkers. 
They are not going to print anything, they have to fact check 
it and make sure it is accurate. They have to send it out and 
have all these other scientists say, you are right or you are 
wrong, or it is crazy or it is innovative, or it needs more 
research.
    So the point I am making, that it is a product that has 
been worked on. And we don't want to take that aspect out of 
the economic chain. If you take that out, you are not going to 
get the good peer-reviewed, fact-checked article. I mean, you 
and I can go on the Internet tomorrow and publish whatever we 
want. Here is my scientific study on whatever, on what I think 
is the cure for cancer. I could go home tonight, write my paper 
and print it on the Internet tomorrow. No one would read it, I 
am sure.
    But the point I am trying to make is that anyone can 
publish anything now, particularly. But when it comes out of a 
peer-reviewed publication, it is scientific. Other scientists 
have spent time, and they probably pay them, I don't know, to 
read it and say, ``this is accurate,'' ``this is wrong,'' ``I 
think it is valuable,'' ``I think it is not valuable.'' So in 
other words, it is an expensive process that gives value added 
to scientific research in our country.
    The point I am trying to make is that I don't think we want 
to take that out of our country. Because if you take that out 
and don't allow someone to make a profit, they are not going to 
do it. I just came from a financial services meeting, and one 
of my bills, they always want everything to be free. I always 
argue that people have to make a profit or cover their 
expenses, or they are not going to do it. Whether it is your 
ATM fees, one of my bills was just letting consumers know there 
is an ATM fee, and then you decide whether it is worth your 
time to pay a dollar to get your money at the spot.
    But the point is, publishers aren't going to do peer-
reviewed research, publish it in the first place, unless they 
are entitled to have some type of profit or at least pay their 
expenses. They have to pay people to look at these things. They 
have to pay fact checkers. When a publisher prints something, 
they have fact checked everything in it and paid someone to do 
it. Maybe for months, who knows. Depends how complicated it is.
    So I think there are many levels that we don't want to 
disrupt scientific research in our country. It is probably the 
most valuable commodity that we have. Not only do we want it 
published and peer-reviewed, but in my opinion, I think we have 
to be careful about protecting the intellectual property in 
order to be competitive in the world financial markets. If 
everything that we discover we are going to immediately give to 
every other country, then they are not going to be investing in 
research. They will say, ``let America invest billions in 
research,'' and they will be publishing it the next day that 
something is peer-reviewed and accurate, and then we can grab 
it and produce it quickly and undercut them and they won't make 
any money off their research.
    If that starts happening, the private sector certainly is 
not going to invest in research. And you will have Members of 
Congress saying, ``why are we bothering with this research that 
is immediately being sent to another country?''
    So I think that we really have a huge problem ahead of us 
on how we protect our copyright and protect our intellectual 
property for us to be able to compete and win economically. 
That is how serious I think it is.
    Then also, we need to protect the publishers. Otherwise, 
they are not going to be doing peer reviews. They are not going 
to be investing in fact checkers. Why should they? They won't 
make any profit.
    So I think we have a challenge where we don't want to kill, 
you get the point. Now, does anybody have any answers? I 
certainly don't. But I do know that we have a challenge in 
front of us. And I think it is a serious one, if we want to 
compete and win in the world economy and hold on to our 
scientific research.
    And let me add something else. You say that all of these 
scientists want their product to be read and they want their 
name on it. Well, no one is going to read their product unless 
it is published and fact-checked and peer reviewed. That takes 
money. All of us can write a thesis tonight and throw it on the 
Internet. Doesn't mean anyone is going to read it. But if it 
comes out of the so and so review scientific panel of NIH or 
whatever, then everybody is going to look at it and say, hey, 
this is important.
    I am very interested in women's health, and then I will be 
quiet on this. I subscribe to certain publishers on women's 
health, because that is one of the fields that I invest my time 
in. Certain ones, people mail me, I wake up every morning, 
there are documents on my front door on women's health.
    But the ones I really pay attention to are the ones that 
are published by respected publishers and scientific 
communities that I know have been fact-checked, peer-reviewed, 
tested, tested on rats, tested on people, and that it is really 
scientifically pure. But that takes money to do it. And I don't 
think we want to take that out of our system. I think we are 
going to have a big problem on anybody doing it.
    And then also, I am very concerned about our 
competitiveness in the world economy. We have not done a good 
job in protecting, we can't even protect a song much less a 
cure for cancer or other important scientific research. It is a 
big issue, Mr. Chairman. You walked into a big issue.
    Mr. Clay. It is.
    Mrs. Maloney. You always do. He always does.
    Mr. Clay. I appreciate your involvement in this hearing.
    The gentlewoman's time has expired, and this panel is 
excused.
    We will now ask for the second panel to come up and take 
your seats. I will now introduce our second panel. On this 
panel we will hear from Dr. Richard Roberts. Dr. Roberts is the 
chief scientific officer at New England Biolabs. Dr. Roberts 
was formally educated in England. His post-doctoral research 
was completed at Harvard. He is the author of numerous articles 
and holds several patents. Dr. Roberts is also the 1993 
recipient of the Nobel Peace Prize in physiology and medicine 
for the discovery of split genes. Welcome.
    Next, we have Ms. Sharon Terry. Ms. Terry is the president 
and CEO of Genetic Alliance, a network promoting openness and 
centered on the health of individuals, families and 
communities. Ms. Terry, a former college chaplain, and her 
husband founded and built an organization that enables ethical 
research and policies, and provides support and information to 
Members and the public. In 2009, she received a Research 
America distinguished organization advocacy award. Ms. Terry 
also has an honorary doctorate from Iona College. Welcome to 
the committee, Ms. Terry.
    Next we have Mr. Elliott Maxwell. Mr. Maxwell is a graduate 
of Brown University and received his law degree from Yale. He 
is a former Department of Commerce official, specializing in 
international technology policy, technology administration as 
well as digital economy. He served as a senior fellow at the 
Aspen Institute. He currently advises on the intersection of 
business, technology and public policy and electronic commerce 
and telecommunications. Welcome to you.
    Next we have Professor Sophia Colamarino, a graduate of 
Stanford and the University of California San Francisco. After 
16 years of laboratory research experience, Sophia joined Cure 
Autism Now in November 2004, as science director. After 
receiving her Ph.D., Professor Colamarino conducted research on 
genetic disorders in Milan, Italy. Sophia's extensive research 
has been included in many publications, in addition to her work 
in Autism Speaks. She is also a consulting associate and 
professor in the Department of Psychiatry and Behavioral 
Sciences at Stanford University. Welcome to you.
    Next we will hear from Dr. David Shulenburger. Dr. 
Shulenburger is a graduate of the University of Illinois, 
receiving a master's degree and a Ph.D. He is the author of 
numerous articles and publications. Dr. Shulenburger was 
recently the executive vice chancellor and provost at the 
University of Kansas. He is currently the vice president of 
Academic Affairs at the Association of Public and Land Grant 
Universities. Welcome.
    Our final witness on this panel will be Ms. Catherine 
Nancarrow. Ms. Nancarrow came to the Public Library of Science 
Community Journals in January 2005 to coordinate the editorial 
production Web and marketing efforts of the Community Journals. 
She is experienced as both a managing editor and development 
editor on peer-reviewed medical journals. Welcome to you also.
    It is the policy of this committee that we swear in all 
witnesses before the testify. Would you all please stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated. Let the record 
reflect that the witnesses answered in the affirmative.
    Each of you, of course, will have 5 minutes to make an 
opening statement. We have your complete written testimony as 
part of the hearing record. Please observe the lights in front 
of you.
    Dr. Roberts, you may begin.

STATEMENTS OF RICHARD ROBERTS, PH.D., F.R.S., CHIEF SCIENTIFIC 
 OFFICER, NEW ENGLAND BIOLABS; SHARON F. TERRY, PRESIDENT AND 
   CEO, GENETIC ALLIANCE; ELLIOT MAXWELL, DIRECTOR, DIGITAL 
CONNECTIONS COUNCIL, COMMITTEE FOR ECONOMIC DEVELOPMENT; SOPHIA 
  COLAMARINO, VICE PRESIDENT, RESEARCH, AUTISM SPEAKS; DAVID 
SHULENBURGER, VICE PRESIDENT FOR ACADEMIC AFFAIRS, ASSOCIATION 
OF PUBLIC AND LAND GRANT UNIVERSITIES; AND CATHERINE NANCARROW, 
 MANAGING EDITOR, PUBLIC LIBRARY OF SCIENCE COMMUNITY JOURNALS

                  STATEMENT OF RICHARD ROBERTS

    Mr. Roberts. I thank you, Chairman Clay.
    My name is Sir Richard Roberts. I am chief scientific 
officer at New England Biolabs, a small company in Ipswich, MA 
that makes reagents for biological research.
    I am also the 1993 Nobel Prize Laureate in Physiology or 
Medicine.
    Let me thank you for inviting me to testify here on the 
important subject of public access to the results of publicly 
funded research. Because scientific research critically depends 
on the knowledge of the scientific literature and building on 
the work of others, access to this literature is the key to 
progress.
    In my view, the open access movement is one of the single 
most important initiatives currently underway within the 
scientific community.
    In addition to my role as chief scientific officer, which 
involves producing the scientific vision for the future 
business of New England Biolabs, I am also an active, working 
scientist, running both an experimental laboratory and a 
computer-based bioinformatics lab. In my various roles, I rely 
completely on digital access to a broad swath of the scientific 
literature, so that I am aware of all the major advances in 
biology as well as the latest work in my own field.
    I read articles in a large number of different journals, 
and am acutely aware of the difficulties accessing articles 
that are not available via open access. Because of the ever-
increasing cost of subscriptions, our company, like most small 
biotech companies, cannot afford subscriptions to all of the 
journals we might read.
    As a result, I often find myself paying the $30 or more 
that is often necessary to read an article that is in a journal 
to which I do not subscribe. Since a use of the scientific 
literature depends upon being able to quickly move from one 
article to another to find the relevant science, it is 
frustrating and inefficient when each step requires the time to 
make another payment. Even more disconcerting is when the 
article that one paid to read turns out to be totally 
irrelevant to the search in hand.
    Of course, the biggest problem is that without 
comprehensive access to the literature, it is impossible to 
know where the cutting edge of science lies. It is at this 
cutting edge that science must work if we are to be productive. 
This lack of access has a very deleterious impact on the small 
startup biotech companies and others for whom cutting edge 
science is their bread and butter.
    Promoting public access to publicly funded research results 
will have a huge impact in improving the health of small U.S. 
companies that depend on science and will also send a strong 
message that the routine practice of denying access to those 
who are unable to afford the subscription costs is actually 
impeding science.
    Also, as we all know, it is these small entrepreneurial 
companies that create the new jobs in the United States, jobs 
that are very badly needed at present.
    While major universities enjoy a great deal of access to 
the scientific literature, no institution can afford to 
subscribe to all of the journals that they might want to 
provide to their constituents. This is even more of a problem 
in many other sectors of society. Many of the smaller colleges, 
including most of the liberal arts colleges, that feed their 
graduates into the major research universities, have extremely 
limited access to the scientific literature. Ensuring public 
access to at least that subset of research results produced 
using public funds is something we can do right now, and would 
be a useful and exemplary step toward filling this gap.
    Even more importantly, as was brought home to me when I 
attended the recent 2010 Intel Science Fair in San Jose is that 
high school students, such as those preparing science fair 
projects, increasingly require access to the scientific 
literature if their projects are to include the innovation that 
makes them the winners. While most schools now have good access 
to computers, it is only when articles are available through 
open access that they also have access to the full range of the 
scientific literature. Most high schools can only dream of 
affording access to pricy scientific journals.
    We must remember that these young people going through our 
schools are the next generation of scientists that will enable 
our country to remain competitive into the foreseeable future. 
Providing public access to the results of publicly funded 
research would have an immediate and positive impact on the 
quality of information available to these students.
    Too often we forget that research is carried out in many 
places other than the well-known research universities. A 
strong policy demanding open access to the results of 
Government-funded research can help small companies become 
competitive, can stimulate job opportunities within those 
companies, and can ensure that our students, the scientists of 
the future, can find out where the cutting edge of research 
really lies.
    Thank you. I welcome any questions.
    [The prepared statement of Mr. Roberts follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. Roberts.
    Ms. Terry, you are recognized for 5 minutes.

                  STATEMENT OF SHARON F. TERRY

    Ms. Terry. Chairman Clay, thank you for the opportunity to 
testify at this hearing.
    I am president and CEO of Genetic Alliance, which works to 
transform health through genetics. Our network includes more 
than 1,200 patient advocacy organizations and thousands of 
partnerships with universities, companies, government agencies 
and policy organizations. The network is an open space for 
thousands of shared resources, hundreds of creative tools and 
dozens of dynamic programs.
    I am also the mom of two children diagnosed with 
pseudoxanthoma elasticum in 1994. My husband, who is a trade 
school graduate, and I, a college chaplain, stole access to 
medical libraries, hacked into Internet Grateful Med, and 
ultimately read 400 articles on this disease. As a result of 
what we learned, we founded PXE International, created a 
biobank, cloned the gene, created a diagnostic test and 
initiated clinical trials. We are the ordinary American public 
and our access to these articles has been critical.
    We are not odd, there are many like us, managing disease 
research and managing personalized care. I have heard there are 
hundreds of thousands of unique users of PubMed Central a day. 
These are not only scientists. Imagine if we had public access 
to all scientific articles.
    We applaud the Congress for the current NIH policy. 
Translating basic science into diagnostics and therapies is an 
urgent need. All information on the raw materials of making 
sense of a disease and mitigating its effects should be 
immediately available.
    Some say that only academicians and scientists at major 
institutions need access to these journal articles. Not so. We 
live in an information age that can and will thrust us into a 
new age of innovation and health and healing. This requires 
multidisciplinary articles in the hands of patients, parents, 
students, engineers, entrepreneurs and scientists in land grant 
colleges and historically Black colleges. It is unconscionable 
that scientific information is not immediately available to 
everyone.
    While publishers argue that they create value around the 
raw information, we would argue that scientists funded with 
Federal tax dollars and so stewards of the public trust infuse 
these articles with value. There is no doubt that the 
publishers add value and that the value proposition around this 
body of knowledge should be paid for. But not the analysis of 
research results themselves. It is the duty of the Federal 
Government to facilitate sunshine on this data and to bring 
these articles into the public comments as quickly as possible.
    We have seen business paradigms for all kinds of industries 
evolve as information aggregation changes. It is time for the 
biomedical publishing industry to evolve as well. Today we are 
among the millions facing an uphill battle, including the 
future of disease and disability for our children. Thousands of 
diseases affect millions of Americans. I have watched thousands 
of people in our community die in these years, and the time for 
waiting is over.
    Let's do it, let's not spend any more of our precious time 
debating this, commenting on this. We live on the promise and 
inestimable value of publicly funded science. Obstacles to 
translating basic science into practice abound. But gated 
access is an artificial one. Remove barriers to information 
immediately. Grant us public access to publicly funded research 
without delay. We have a great deal of work to do, and we need 
the tools now.
    I would be happy to take any questions.
    [The prepared statement of Ms. Terry follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Ms. Terry, for your testimony.
    Mr. Maxwell, you are recognized for 5 minutes.

                  STATEMENT OF ELLIOT MAXWELL

    Mr. Maxwell. Thank you, Mr. Chairman. I am honored to have 
this opportunity to testify before the subcommittee.
    My name is Elliot Maxwell. I am here representing the 
Committee for Economic Development, a non-profit, non-partisan 
business-led public policy organization.
    For nearly 70 years, CED has provided sound policy research 
on major economic and social issues facing the Nation. The 
membership of CED is made up of some 200 senior corporate 
executives from a wide range of industry sectors, as well as 
leaders from U.S. universities.
    To address cutting edge technology issues, particularly 
those arising from the emergence of the Internet, CED 
established its Digital Connections Council, comprised of 
information technology experts from CED companies. Since 2004, 
I have directed the DCC, which has published a series of 
reports focusing on the impact of the Internet and on 
increasing digitization of information.
    The members of the DCC, coming from high technology 
organizations, all rely incredibly on intellectual property 
protections as their parent organizations. But they have come 
to realize that the rise of the Internet and the digitization 
of information has led to an explosion of greater openness, and 
that greater openness is critical for increasing innovation.
    Economic development is part of the name of the Committee 
for Economic Development, and that is where its focus is. These 
are businesses that are interested in economic activity, in 
economic growth and the innovation that is necessary to 
accomplish it. They came to the conclusion that this bill and 
policies that increase openness are absolutely crucial for 
economic growth and to restrict access to information, to 
continue policies that would limit access by businesses, by 
individuals, by academic institutions, more broadly would be 
harmful to the economic growth of the United States, would 
prevent the kind of growth we need at this very moment.
    The bill addresses three important points. One is to 
increase access to the research. We have heard from two people, 
one representing a small business, one representing individuals 
who are concerned about the health of their children or 
relatives. They don't have access. In some cases people can't 
afford it, in some cases they are not able to get to the 
information to where, or to institutions where they would have 
access to it. Businesses can't afford all the kind of 
information that they would like to have.
    It is axiomatic that the more people who have access to 
information, the more people who can buildupon it. And the real 
value of information is in its use. It is not in the 
information itself; it is in people using it.
    The second important part is, you want to increase the 
impact of the research that you fund. You want to get a higher 
return on the investment, an enormous investment that is made 
by the U.S. Government. And the way to do that is to give it 
more, make it more available to people who are creative and who 
want to use this information. We can't know before hand how 
they are going to use it.
    So it is very important to try to get this out as broadly 
as possible. To be frank, it is not necessarily in the interest 
of publishers to get it out more broadly, it is in the interest 
of publishers to maximize their return. And that is perfectly 
sensible.
    It is in the interest of the U.S. Government to get its 
funded research out to as many people as possible to broaden 
its impact. Greater openness, greater accessibility increases 
the speed of discovery. It broadens discovery because it makes 
information available to people who might not otherwise know 
about it, or even be working in the same field. It reduces 
redundant research. It keeps people from going over blind 
alleys they wouldn't know about because they didn't have access 
to it.
    And most importantly, it allows more people to innovate 
upon that research. Think about the Weather Service. I remember 
2 years ago, 3 years ago, people were saying, ``why don't we 
have the Weather Service's information?'' We can get it from 
the Weather Channel. But the Weather Channel couldn't exist 
without the availability of U.S. Government information. It is 
allowing people to have access to information, to innovate upon 
it, that creates those opportunities that allows people to 
build businesses, to create jobs, to innovate. That is what we 
need to do now.
    So we are speaking for businesses who want innovation, who 
want economic growth and know that the way to do that, the 
social return on the investment of research is enhanced by 
making it more broadly available. It is not enhanced by 
restricting it.
    It helps people who worry about the health of their 
children, it helps small businesses. It helps anybody who is 
creative in making available this information. And because it 
is a U.S. Government investment, we need to think about the 
best way of increasing that return on investment.
    It is consistent with intellectual property laws, the idea 
that journal articles exist separately from the research in 
some disconnected fashion seems implausible. They wouldn't 
exist without this research. We need to do everything we can to 
make the return higher, to spur innovation and to get more 
economic growth.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Maxwell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you so much, Mr. Maxwell.
    Professor Colamarino, you are recognized for 5 minutes.

                 STATEMENT OF SOPHIA COLAMARINO

    Ms. Colamarino. Thank you, Chairman Clay. I am speaking on 
behalf of Autism Speaks, the Nation's largest autism science 
and advocacy organization. Importantly, I ask that my full 
statement be included in the hearing record.
    I am here today as a scientist with a Ph.D. in neuroscience 
who serves as the vice president of research for Autism Speaks. 
We invest over $20 million in annual funding for research into 
the causes, prevention and treatments for autism.
    I am also speaking to you today as the architect of the 
first public access policy for a U.S.-based non-profit advocacy 
organization.
    Today I would like to underscore the importance of open 
access from three perspectives: that of the families affected 
by a disorder; that of an active scientist who needs access to 
effectively do her job; and that of a funder that needs access 
to achieve our mission and provide accountability while doing 
so.
    So first, the families. My main motivation for being here 
today is the desire to improve the lives of individuals with 
autism. Autism impacts nearly 1 in 100 children in the United 
States. There are currently no effective treatments that 
address the core symptoms. For decades, parents and care 
providers have cobbled together intervention approaches as they 
best see fit.
    Access to the latest findings would empower them to be more 
educated advocates by allowing them to read first-hand the 
research progress. However, they have to struggle to find the 
most credible information necessary to make informed decisions 
because of what currently amounts to an arbitrary barrier to 
accessing published research literature. Sadly, in 2010, where 
essentially anything said by anyone can be accessible within a 
matter of moments, families are inundated with information and 
have access to all but the most scientifically rigorous data. 
And it is time for that to change.
    Second, my job as a scientist. I am tasked on providing 
counsel and investing millions in research funding. However, 
when I left academia to direct research in the context of an 
advocacy organization, I had no idea what a major hurdle I 
would find. On a Friday in 2004, I left my research position at 
the Saulk Institute, where I had full access to scientific 
literature. The following Monday, I started my new position as 
science director of an international research organization and 
I had none.
    To this day, Autism Speaks grantees and fellow scientists 
are shocked to find out that our organization does not have 
free access to these articles. This is not unique to us. It is 
not financially possible for non-profit funders of health 
research and training to subscribe to the full range of science 
journals needed to do their work.
    I also want to emphasize, this barrier is not exclusive to 
science duties. My colleagues in our Government relations 
divisions cannot access the primary research literature 
required to substantiate their policy recommendations.
    In sum, there is an entire segment of scientists and health 
advocates blocked from effectively doing their jobs without 
this access.
    Third, our mission. The mission of Autism Speaks is to 
improve the future for all who struggle with autism. We are 
dedicated to funding global biomedical research and translating 
discoveries into tangible impacts. I cannot stress how 
important it is for research findings to be in the public 
domain. Funding organizations such as ours can support as much 
research as they wish. But unless the knowledge is utilized by 
others, it remains useless.
    Unfortunately, just as there are scientists currently 
denied access based on our employment situations, there are 
also academic researchers in less developed countries who 
cannot afford journal access, and even lay people who want to 
devote their minds to autism but cannot gain access to the 
literature to study it. It is critical to our mission that 
research papers resulting from public funding be readily 
available to anyone with an interest in autism research.
    We must also be accountable in pursuit of this mission. Our 
donors are typically the families of the very individuals we 
are aiming to help, many of whom are already financially 
struggling due to the heavy burden of autism care. It is 
exceedingly important for them to see the outcome of their 
investment and their impact on reducing disease burden.
    I find it frustratingly difficult to explain to a donor who 
provided me with the money in the first place to pay for the 
research that they have to pay once again to see the outcome of 
that research.
    Now, as I said at the start, Autism Speaks is perhaps 
uniquely qualified to call for expanded access to the results 
of publicly funded research, because in 2008, we implemented 
our own public access policy. We modeled this policy on the 
highly successful policy of the NIH. Several other non-profit 
organizations have since expressed interest in following ours. 
This is perhaps the best proof that what I have spoken of today 
is not about the needs of autism per se, but about the 
fundamental way to change the way stakeholders are finally 
included in this discovery process.
    In summary, open access to publicly funded research will 
lead to more informed advocacy and further research advances. 
It has enormous benefits for families that need information 
that directly affects their lives, and it will greatly enhance 
the ability of scientists like me who quite simply require 
access to invest our scarce research dollars. It will also help 
the myriad other organizations such as Autism Speaks achieve 
their mission; namely, benefiting the public by accelerating 
research toward breakthrough discoveries, treatments and 
eventually cures.
    Thank you for providing me with this opportunity to speak, 
and I am happy to take any questions. Thank you.
    [The prepared statement of Ms. Colamarino follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Professor.
    Dr. Shulenburger.

               STATEMENT OF DAVID E. SHULENBURGER

    Dr. Shulenburger. Thank you, Chairman Clay, for the 
opportunity to speak today about public access. It is an 
important topic for higher education for the future of the 
country.
    The Association of Public and Land Grant Universities 
[APLU], supports Federal legislation ensuring public access to 
scholarly articles growing out of federally funded research. 
APLU is an association of public research universities 
including all flagship and all land grant universities in every 
State. Our 219 members enroll more than 4.7 million students, 
award 60 percent of the U.S. doctoral degrees, and conduct 
nearly two-thirds of all federally funded academic research.
    For the last 4 years, I have been the academic affairs 
officer of APLU. Before joining the organization, I spent 13 
years as provost at the University of Kansas, and a total of 34 
years on its faculty. I am also an economist.
    My interest in access to scholarly writing was intensified 
both by my duties as provost and my discipline as an economist. 
For over two decades, journal prices increased at a nearly 10 
percent annual rate, while KU's budget barely kept up with 
inflation. Why did journal prices increase at a rate that made 
them less available to higher education? That question has 
since been my major research focus.
    The problem we address is that faculty from time to time 
experience delays in accessing articles published in scholarly 
journals or cannot gain access at all. These road blocks harm 
their productivity. The public access policy is primarily aimed 
at easing these road blocks.
    But access to scholarly literature is also important to the 
quality of education. Clearly, superior graduate education is 
based on the use of this literature. But this research also 
informs good undergraduate instruction. Unfortunately, students 
at non-research institutions and their faculty don't have broad 
access to this research literature. Perhaps those with least 
access are at the community colleges, where half our country's 
students are now enrolled. A Federal public access policy would 
have positive impacts on all post-secondary education.
    As you have heard, many businesses, especially high-tech 
startups, need access to research findings. Better access 
improves their chances of remaining competitive. The need of 
individuals to access the scholarly literature comes from many 
directions. When a child receives a deadly diagnosis, parents 
have difficulties understanding why they can't have ready 
access to the research that has been funded with their public 
dollars.
    APLU supports NIH's public access model. It works. So we 
support its spread to other funding agencies. The Federal 
Research Public Access Act follows NIH's proven model, and APLU 
endorses its passage, with some caveats.
    Central deposits, such as NIH has, may not be necessary. An 
article conceivably could be placed in a faculty member's own 
university repository and be included virtually in the funding 
agency's public access repository. To the extent possible, we 
would hope deposit requirements and procedures should be 
uniform across funding agencies, because that would reduce the 
cost of compliance considerably.
    The NIH has a flexible, zero to 12 month embargo period, 
not as you have heard, a one size fits all, but it is a 
flexible period that exists now, and it depends upon the 
preferences of the journal publication. We believe that is 
acceptable for public access. Shorter would be better, but 12 
months is acceptable.
    A choice has to be made between deposit of the final 
manuscript version of the article, or the article in the form 
in which it appears in the journal. We favor the latter, so 
long as full text, word by word search can be made. Some 
suggest that access to the final grant report would provide 
adequate access to research findings. We do not accept this 
contention. Most grant reports are narrowly focused. Journal 
articles generally provide context for the results reported, 
relate those results to the wider literature, and are more 
easily located through public finding aids.
    Public access with characteristics I have enumerated, would 
be compatible with the continuation of subscription-based 
scholarly journals. The evidence is that public access has 
little impact on subscription revenue and is thus fully 
consistent with ensuring that the refereeing of the literature 
continues. Thank you.
    [The prepared statement of Dr. Shulenburger follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. From a Missouri Tiger to a Kansas Jayhawk, thank 
you, too. [Laughter.]
    Ms. Nancarrow, you are recognized for 5 minutes.

                STATEMENT OF CATHERINE NANCARROW

    Ms. Nancarrow. Thank you, Mr. Chairman. It is a privilege 
to testify today before the subcommittee about the importance 
of public access to the results of federally funded research.
    I am speaking on behalf of the Public Library of Science 
[PLoS]. PLoS is a non-profit publisher of peer-reviewed 
journals. But what makes PLoS different from the bulk of 
journal publishers is that every article we publish is open 
access. Each is freely and publicly available online as soon as 
it is published.
    My name is Catherine Nancarrow, and I am the managing 
editor of PLoS's community journal program. I have over 25 
years of experience in publishing, and I have managed a number 
of peer-reviewed medical and bioscience journals. In 2004, I 
was delighted to join PLoS, because of its mission to drive a 
transition toward comprehensive public access to all research 
articles.
    Policies promoting public access have been embraced by many 
organizations beyond PLoS. Yet concerns have been expressed 
that they will be detrimental to the scholarly publishing 
enterprise.
    My goal today is to make three key points. PLoS has shown 
that open access journals can be published according to the 
highest standards. We have shown that open access publishing is 
economically sustainable. And finally, the real benefit of 
immediate public access is that it transforms the research 
literature into a profoundly powerful resource for research and 
education.
    To address the point about quality, PLoS has consistently 
adhered to the highest standards of editorial integrity and 
publishing ethics. We knew that we would only develop broader 
confidence in open access publishing if the quality of the 
articles that we publish is of the highest standard.
    Seven years from when we launched PLoS Biology, our 
journals are highly regarded as trusted sources of research 
information and are desirable venues for researchers to publish 
their best work. Our journals have international editorial 
boards comprised of leading researchers across a range of 
disciplines, are featured in leading blogs and media outlets 
and receive substantial numbers of submissions each month and 
continue to grow.
    In addition, many of our journal articles are highly cited, 
another indication of their significance to the research 
community.
    To address the point of financial viability, let me briefly 
explain our business model. Whereas most publishers charge a 
fee to access their content, PLoS charges a fee to publish in 
its journals. In this way, the cost of publishing can be 
recovered before publication and the content can therefore be 
made freely and publicly accessible as soon as it is published.
    Using this model, PLoS has progressed steadily toward 
sustainability and posted its first two profitable quarters in 
Q1 and Q2 of 2010. In doing so, we will be on target to make a 
modest profit.
    This achievement represents a landmark for PLoS, but also 
for open access publishing as a whole. As well as being 
economically sustainable as an organization, our individual 
community journals are each fully self-sufficient. They 
represent models for how typical academic journals can maintain 
high standards of publishing and achieve immediate public 
access supported by publication fees.
    This is relevant to all publishers considering a move to 
open access, whether commercial, not-for-profit, university 
presses or scientific societies. PLoS is not alone in 
demonstrating the economic success of open access publishing, 
however. Two large commercial publishers, BioMed Central and 
Hindawi Publishing, have also shown that open access 
publishing, based on the publication fee model, is sustainable 
in environments where public policies have been put in place by 
national funders, such as the Wellcome Trust and the Research 
Councils UK. A prominent example is Springer, who bought BioMed 
Central in 2008 and continues to expand their open access 
publishing operation.
    Beyond publishers, there are demonstrable and critical 
commitments to open access from the other key stakeholders in 
publishing: funders, institutions, libraries, policymakers, and 
the research community. Just last week, UNESCO announced 
``scientific information is both a researcher's greatest output 
and technological innovation's most important resource. UNESCO 
promotes open access.''
    I will end by highlighting two examples of how researchers 
have made the most of public and open access to PLoS articles. 
Professor David Shotton from Oxford University reworked an 
article about a tropical disease caused by Leptospira 
infection. He linked various terms in the article to other 
sources of information and data, enhanced the figure to provide 
moveable interactive maps and enriched tables with downloadable 
data. A series of editorials in PLoS Computational Biology has 
been translated into Chinese, repurposed into a series of video 
presentations and developed into a graduate level course 
curriculum.
    These are just first steps, but they show how public access 
promotes creative re-use of content and transforms the 
literature into a more powerful resource for research and 
teaching. With the elimination of all barriers to access, our 
use of the literature is only limited by our imagination.
    Thank you, and I am happy to take any questions you might 
have.
    [The prepared statement of Ms. Nancarrow follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Ms. Nancarrow. I thank the entire 
panel for their testimony.
    Let me ask a panel-wide question. We can start with Dr. 
Roberts. Are you concerned that open access would affect the 
peer review process?
    Mr. Roberts. Not at all. In fact, it is already clear that 
it has no effect on the peer review process. For many years, I 
was chief editor of Nucleic Acids Research, the first journal 
to go from being subscription based to being open access. We 
saw absolutely no difference between the willingness of 
reviewers to come and review for us when we were a subscription 
based journal or when we were an open access journal.
    I for instance review frequently for the PLoS journals at 
no charge. Contrary to what you may have heard earlier, 
reviewers don't get paid. Reviewers do it for free. I have a 
paper in my briefcase at the moment from PLoS Genetics that I 
am reviewing.
    It is unrelated, peer review is unrelated to whether you 
are looking at subscription journals or whether they are open 
access journals. We do peer review as scientists because we 
feel this is a very important part of our service to science.
    Mr. Clay. Wow. Thank you for that response.
    Ms. Terry.
    Ms. Terry. I agree completely with that. I too am a 
reviewer, for free, as well. I think that what we are looking 
for is an ecosystem that allows a greater enhancement of 
publishing overall. You have heard some of those things here 
today. In addition to the immediate peer reviewers of articles, 
articles that are widely disseminated, are able to be 
integrated into technologies, into diagnostics, etc., and 
transformed more quickly.
    I think the community itself, the scientists, want to do 
excellent work and want to hear from their peers, not just in a 
formal process and in a somewhat antiquated publishing system, 
but in a broader one that takes into account innovation and the 
technologies that are making the Internet really successful in 
disseminating all these augmented and annotated resources.
    Mr. Clay. Thank you.
    Mr. Maxwell, how does open access affect us?
    Mr. Maxwell. I think as we have already heard, that there 
are peer review processes in open access journals as well as in 
proprietary journals. I want to make one slightly different 
point, and that is that the greater the public access to the 
material, the more likely it is that people will find problems 
with it or make suggestions about it. And it is not a two or 
three people reading of a particular article. When it gets out 
and available, more people can see it and more people can 
discover things that they can buildupon, or things that they 
can criticize.
    Mr. Clay. So that means the information could actually be 
enhanced?
    Mr. Maxwell. Absolutely.
    Mr. Clay. I see.
    Mr. Maxwell. And sometimes I think that is an underrated 
part of what happens in the Internet. Now, that is not to deny 
that there is a lot of garbage out there. We know that. But as 
people have said repeatedly, sunshine is the best disinfectant. 
It is better to have people able to have access and comment 
than to withhold.
    Mr. Clay. Professor Colamarino, any comment?
    Ms. Colamarino. Thank you. I think that our publishers here 
can speak to this a little bit better, but as far as I am 
concerned, it shouldn't have an impact. In fact, as Dr. Roberts 
already mentioned, and it wasn't brought up, I don't believe, 
on the earlier panels, reviewers are not actually paid. It is a 
public service work that they do.
    I also want to echo what Mr. Maxwell said, which is what I 
was going to say, which is that science is self-correcting. So 
in fact, there is further review once the article gets out 
there. That review is done by the broader community. That is 
how science gets used. It is very iterative. So it actually is 
furthered with open access.
    Mr. Clay. Thank you.
    Dr. Shulenburger.
    Dr. Shulenburger. I completely agree. We have had 
considerable experience with public access, as well as open 
access. We don't see journals declining in numbers. In fact, 
the journals are a very healthy ecosystem. They are increasing 
in numbers very rapidly now. Thus I am confident that 
subscription-based journals will continue. That has been the 
experience under NIH, and I think we will see, as NIH's 
experience gets longer, that will be the case.
    But as healthy as this ecosystem is, and the fact that it 
depends upon free labor for review and only pays to organize 
those reviews, I am confident we will develop models that will 
continue it into the future. We must.
    Mr. Clay. Thank you.
    Ms. Nancarrow, will open access have a negative impact on 
peer review?
    Ms. Nancarrow. Absolutely not. I can say that both as an 
editor of having been in subscription based journals prior to 
coming to PLoS. But I have to say that one of the hallmarks of 
peer review, or the journals' responsibility, is qualitative 
and quantitative and a peer review of excellence. And I think 
PLoS has shown that all of our journals provide, in fact, many 
of our authors would say it is extremely rigorous peer review. 
We owe a huge debt of gratitude to the scientists who do 
dedicate their time to it and ensure the heathy assessment of 
the science that we publish.
    Mr. Clay. Thank you so much.
    I guess I can direct this to the panel, or maybe Dr. 
Shulenburger could respond. Could you give your opinion as to 
how you believe open access would affect students and those 
researchers working on projects?
    Dr. Shulenburger. In order to do the best science, in order 
not to repeat yourself, you have to know what has been done 
before. And you only know that if the material is available, is 
published, and you can get to it as a researchers. Much of our 
training of doctoral students is done as they do research. 
Having that material fully available to them makes a 
difference.
    But I want to repeat what I said earlier. We think of this 
as distant material. I have had a great many of my 
undergraduates who went to the literature and used it. Those 
community college students would use it, their faculty would 
use it. Maybe not daily, but the best of them have potentials 
to win Nobel prizes some day. We just simply need to put before 
them material that will keep them challenged and make the most 
of their talents.
    Mr. Clay. Anyone else on how to impact students? Dr. 
Roberts.
    Mr. Roberts. As I said, when I was at the Intel Science 
Fair, I was absolutely astonished at the level at which these 
students work. These are 17, 18 year olds. A colleague of mine 
at New England Biolabs has a daughter who is now 18. When she 
was 16, she was doing science fair projects that were only 
possible because she had access to the Internet through our 
company and to literature through our company. At her high 
school, she had no access to this. High schools can't afford 
access to the literature.
    And I think we often do a great disservice to our students 
by denying them access to the resources they need. We often 
think they are not ready for it. We are wrong. These good 
students, they need access to this material. And they are the 
future. This is the future of science. This is where we are 
going. We have to do everything possible to put them in touch 
with the information.
    Mr. Clay. Thank you for that response.
    Let me ask Professor Colamarino, the NIH policy provides 
the public with access to medical research. How would expanding 
the policy to other areas of science help patients with 
information that would be relevant to their illnesses?
    Ms. Colamarino. There are many Federal programs that fund 
research beyond just the NIH. And I think success in tackling 
these very complex disorders is only going to come from using a 
very integrative approach to examining the data. Speaking 
specifically about autism, which is a very complex biological 
and behavioral disorder, you need to have information from 
everything that ranges not just from the biomedical to, say, 
the psychological to the educational as well.
    Mr. Clay. Some say that granting access to STM articles 
does not help the non-professional, such as patients and their 
families. How do you respond to that?
    Ms. Colamarino. I travel this country, sometimes up to 90 
percent of the time, meeting with these families and lecturing 
to them. I have found them to be nothing but sophisticated in 
their ability to interpret and read these papers. In the 
instances where they have questions, they print them out and 
they bring them to their care providers. This is, the families 
are starved for information. This would very much help provide 
them with what they are missing.
    Mr. Clay. Mr. Maxwell.
    Mr. Maxwell. When you asked about the extension of this 
policy more broadly, it is very important to recognize that 
while experts are very valuable and need to be looked to, there 
is information, experience, expertise available far beyond 
those people we would designate as an expert in a particular 
area. That is one of the real advantages of thinking about 
broad access. Because we can't know in advance who is going to 
make this discovery, who is going to buildupon it, who is going 
to have some entrepreneurial take on it to create a new 
business.
    We don't know that in advance. If we simply say, ``if you 
can afford it, you can get it,'' or ``if you are an expert you 
can get it.'' That misses the real point of openness, which is 
to open to a broad and democratic group of people who can take 
the information and make it more valuable.
    Mr. Clay. Which takes me to my next question. Ms. Terry, 
several witnesses have referred to access to research data. I 
understand that access to data is very different and that 
publishers agree that data should be made available. Can you 
explain how this is different from access to journal articles? 
And should we be focusing on ensuring that data resulting from 
Government-funded research is made available?
    Ms. Terry. Thanks very much for that question. I think we 
should be doing both. And the reason for that is the articles 
themselves are the distillation of the research data that has 
been done by intelligent people who are experts in a certain 
way. And I completely agree with Mr. Maxwell that then those 
need to be released into the ecosystem that will allow them to 
be enhanced more greatly.
    The data itself, from publicly funded research as well, 
should be shared broadly, including, I would say, anything that 
touches a patient. So, clinical trial data, biospecimen data, 
etc. But we really need both. Because there right now is way 
more information than we can ever, ever deal with. And we need 
to have the hearts and mind of all the individuals who care 
from every discipline looking at this data and looking at these 
research articles.
    Mr. Clay. Let me just make an editorial comment. I hear 
witnesses all the time. I have never had a witness come in and 
admit that they committed a crime. You admitted that you stole 
information and I guess you were driven by passion and a love. 
I have to compliment you on your being so straightforward and 
forthcoming.
    Dr. Shulenburger, some have argued that in the current STM 
publishing model, the American public is taxed twice, once to 
provide the billions of dollars for the research and again to 
provide the hundreds of thousands of dollars for public 
institutions to buy back access to the results of that 
research. Can you explain what is meant by this argument?
    Dr. Shulenburger. I think it is at least partially true. 
Public institutions are indeed funded by tax dollars as the 
research is. The cost of that research has risen to a point 
that we can't afford it, as you have heard, can't make it 
available to our own scientists.
    I said partially true, the journal publishers certainly add 
value. But they don't add sufficient value to justify keeping 
the articles that are produced behind gates for the entirety of 
the article's life. And that is the current situation. What we 
are asking for is, remove that tax after a year. Let the 
journal publishers make their return during the embargo period 
and then let's make sure that the public has full access to 
that which they paid for.
    Mr. Clay. Thank you.
    Ms. Nancarrow, are the reports generally in a usable form 
for the general public?
    Ms. Nancarrow. The reports meaning? I am sorry, Mr. 
Chairman, to what do you refer in terms of the reports?
    Mr. Clay. The research. The publishers' reports.
    Ms. Nancarrow. The published reports. I am sorry, could you 
repeat the question?
    Mr. Clay. Basically, it is the published reports that they 
provide to the public. Are they in useable form?
    Ms. Nancarrow. I think it depends on the type of submission 
that we receive. But generally, they are in an understandable 
form to an expert panel. But they are, I think, to quote Ms. 
Terry, there is an interpretive process that occurs after that.
    Mr. Clay. Ms. Terry.
    Ms. Terry. I would also say that the output of all these 
journals is understandable. And certainly to a certain degree, 
there are opportunities then to understand further. I certainly 
learned a lot reading 400 articles on pseudoxanthoma elasticum, 
something, as my husband says, we didn't know a gene from a 
hubcap when we started.
    But all of this information has with it the ability to 
understand using dictionaries, encyclopedias and other experts. 
So it is in a usable form, and we are using it every day, 
hundreds of thousands of us.
    Mr. Clay. So you have to decipher and interpret?
    Ms. Terry. Sure. Just like if I read my auto repair manual, 
I occasionally have to look up a word. But I can learn, and so 
can the general public.
    Mr. Clay. Thank you. And let me thank this panel for your 
testimony, for your indulgence with this committee. You 
certainly bring a different perspective to this committee.
    I appreciate your service, appreciate your coming in. This 
panel is dismissed.
    Our final panel consists of one witness, Dr. David Lipman 
of the National Institutes of Health. Dr. Lipman is the 
Director of the National Center for Biotechnology Information, 
a Division of the National Library of Medicine at the National 
Institutes of Health. Appointed in 1989, he is overseeing the 
development of NCBI as a nationally and internationally 
recognized resource for molecular biology information.
    Dr. Lipman is an elected member of the National Academy of 
Sciences, the Institute of Medicine and the American Academy of 
Arts and Sciences, just to name a few. Welcome, Dr. Lipman.
    It is the policy of this subcommittee to swear in all 
witnesses. I would ask you to rise and raise your right hand.
    [Witness sworn.]
    Mr. Clay. Thank you, and you may be seated. Let the record 
reflect that the witness answered in the affirmative. We will 
allow you 5 minutes to make an opening statement, Dr. Lipman.

 STATEMENT OF DAVID J. LIPMAN, M.D., DIRECTOR, NATIONAL CENTER 
 FOR BIOTECHNOLOGY INFORMATION, NATIONAL LIBRARY OF MEDICINE, 
 NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. Lipman. Chairman Clay, it is my pleasure to testify 
before you today. My name is David Lipman. I am the Director of 
the National Center for Biotechnology Information [NCBI], at 
the National Library of Medicine, within the National 
Institutes of Health, an agency of the Department of Health and 
Human Services.
    NCBI was established by Congress in 1988 as a national 
resource for molecular biology information. NCBI maintains more 
than 40 data bases, including GenBank, the data base of all 
known DNA sequences, and PubMed Central [PMC], the archive of 
journal articles in the biomedical sciences. PMC is also the 
repository for NIH-funded articles submitted in compliance with 
the NIH public access policy.
    We launched PMC 10 years ago in collaboration with a number 
of publishers who deposited their journal articles in PMC to 
make them more widely accessible. Our experience has 
illustrated the benefits that a central repository could have, 
not only for scientists, but for doctors, researchers and the 
general public as well.
    In 2005, NIH announced a voluntary public access policy. 
The policy requested recipients of NIH funding to deposit a 
copy of their peer-reviewed manuscripts in PMC. The policy 
permitted delay of public availability of the article for up to 
12 months after publication. However, compliance was only at 5 
percent.
    To improve compliance, Congress in the Consolidated 
Appropriations Act for fiscal year 2008 instructed NIH to make 
the public access policy mandatory. This had a dramatic effect 
on compliance. Of the 88,000 NIH-funded articles published in 
2009, 70 percent have been submitted to PMC and that figure 
continues to grow.
    With increased content has come increased usage. On a 
typical weekday, 740,000 articles are retrieved by 420,000 
different users. Last year, 99 percent of the articles in PMC 
were downloaded at least once, and 28 percent were retrieved 
more than 100 times. Annual operating costs for the public 
access system are approximately $3.5 million to $4 million per 
year, which represents a small fraction of NIH's budget 
authority of $30 billion per year. Our costs are low because of 
the infrastructure and expertise that the National Library of 
Medicine has developed over many years.
    The success of the NIH model has stimulated similar efforts 
in other countries. Major biomedical funding organization in 
the U.K. and Canada, for example, have public access policies 
similar to NIH's, and both countries use PMC software for their 
repositories. This collaboration expands access for U.S. users 
to research done worldwide.
    But to look at PMC as just a repository for scientific 
articles is to miss the bigger picture. PMC is an integral part 
of a larger information infrastructure that is accelerating 
discovery. Articles in PMC are entry points into a vast body of 
biomedical information maintained by NCBI and the Library of 
Medicine. Every day, users download over 13 trillion bytes of 
data, which is equivalent to all the books in the Library of 
Congress.
    Interpreting these data requires access to the underlying 
knowledge that is embodied in scientific articles. By having 
PMC articles integrated with our other data bases, we are able 
to create linkages among these resources that can advance 
scientific discovery. For example, during the recent flu 
pandemic, NCBI was the major site for collecting all flu 
sequences. Within months, we had over 20,000 viral sequences 
from around the world.
    Through use of our system, a researcher could read an 
article on drug resistant variants of the flu virus, and with 
the click of a mouse, compare new isolates to all other flu 
variants to gain new insights into flu epidemiology. As this 
example illustrates, PMC and the NIH public access policy 
ensure that the knowledge that is generated by the Government's 
investment in research enables continued progress in biomedical 
science, having a comprehensive resource that integrates 
knowledge and data, speeds the discovery process that is 
critical for improving human health.
    Thank you for the opportunity to present our experiences to 
you. I would be happy to answer any questions you might have.
    [The prepared statement of Dr. Lipman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Dr. Lipman.
    Let me ask you, why is it important for there to be 
Government-run data bases of federally funded research 
articles? For example, what do you think about requiring the 
Government to link to the original journal's Web site in order 
to read the articles?
    Dr. Lipman. Well, our experience, I think we found several 
important advantages of having the actual content available at 
the National Library of Medicine. For one thing, the Library of 
Medicine has been archiving the literature for 150 years. The 
historical record is that archiving is done by libraries, not 
by publishers. So this is very precious information, and we 
really need to have long-term archiving.
    Two, when the content is not being used directly on your 
site, when there are problems, problems with the underlying 
data, problems in terms of being able to connect to other kinds 
of information, we just can't find that out. The reason why so 
many Web sites really find it valuable to mine the way people 
use their Web site is they can improve it by seeing how it is 
being used.
    We have been doing this for several years. We call it our 
discovery initiative. We can provide quantitative information 
on how users improve their use of the resource by us being able 
to follow what they are doing and actually train the system 
instead of trying to train the users. So that is just a few of 
the reasons why we find it really critical that the archive be 
available.
    In addition, our outside advisors, we did try a link out 
option for a period of time in the beginning of PubMed Central, 
probably about 10 years ago, actually at the start. We had a 
number of problems with doing that, and they ultimately advised 
us to stop that option because of the problems that we faced.
    Mr. Clay. Out of curiosity, have you been able to digitize 
and make that 150 years worth of research and knowledge 
accessible to the public?
    Dr. Lipman. That is a very exciting prospect. But we have 
begun some of that. I will say one thing, our initial advisors 
in PubMed Central said, the information in the older articles 
is very valuable. What about the participating publishers, the 
publishers, and there are quite a few, hundreds of them, 
hundreds of journals voluntarily, even before the public access 
policy, were collaborating with us in doing this. We worked 
with them and the British government, the Wellcome Trust and 
the British Government provided funds for us to digitize 
articles going back to the 1800's. This included articles from 
the American Society of Microbiology, where there was 
tremendously interesting data on the Spanish flu from 1918 and 
other diseases where, while they didn't have the molecular 
biology methods, they did have doctors' observations and 
epidemiological data that has proved valuable.
    So that is a great point. And to the extent that we have 
been able to do this, we have found it has been tremendously 
beneficial.
    Mr. Clay. Wonderful. Doctor, I understand that it has only 
been a few years. But how has the NIH policy affected research, 
and how do you believe it has affected publishing?
    Dr. Lipman. I don't know how to say this the right way, but 
10 years ago, when we were starting PubMed Central, we heard a 
lot of the same concerns that the publishers raised. Ten years 
has gone by and a lot of those things didn't happen.
    So we heard those same things again 5 years ago when there 
was the start of the public access policy. Now it has been in 
full force in a mandatory form for 2 years. And at least we are 
not aware of dramatic changes because of that.
    On the other hand, as we said, we have a heck of a lot more 
articles that are now being intensively used by people around 
the United States. We are seeing a lot of benefits already, at 
least in terms of usage. It takes a while before that 
translates into differences in health care and so forth. But 
usage has to come first.
    Mr. Clay. So I would assume the scientific community is no 
different than the rest of American society, we tend to resist 
change initially, and then after the initial shock and they get 
over it, then they embrace the change. Have you see widespread 
use and increasing use of your site?
    Dr. Lipman. Yes, actually there has been about a doubling, 
I think, for many aspects of usage just since 2008. So yes, we 
do see an increased use. And actually, I would make an 
important point, that as more data, more articles are in PubMed 
Central, we see a concomitant increase in usage. It is sort of 
proportional. We find that for all of our data bases, the more 
comprehensive they are, the more the usage is. They just track 
right along with each other.
    Mr. Clay. If the platform used to support PubMed Central is 
portable, can other agencies use this to establish their own 
repositories?
    Dr. Lipman. Thank you for that question. Absolutely, we 
would be pleased to help any agency in that manner. Frankly, 
the expertise that the Library of Medicine has had over 10 
years of doing this, I think, could be used in many ways to 
help the other agencies from simply consulting in advice to 
using software like PubMed Central, to even having the Library 
of Medicine do the first phase of the creation of the 
Government-wide archive. In other words, the sort of librarian 
aspect of getting the content from publishers or from authors, 
making sure it is in a stable, uniform digital format, and then 
providing at least simple forms of retrieval across it all. We 
could do that and I think we could do it very cost effectively. 
We could project those costs.
    But then for domain-specific usage, things that are very 
important for some areas of physics or meteorology or other 
areas outside of our expertise, those articles could be pulled 
into an agency-specific, domain-specific archive. So I think 
there is a whole range of ways that the experience of the 
Library of Medicine could be used to make this succeed.
    Mr. Clay. Thank you for that response. Last question. Can 
you describe the process by which researchers submit their work 
to NIH? Is it a difficult process to comply with?
    Dr. Lipman. Right now, there are 900 journals that have 
arrangements with the Library of Medicine so that the content 
comes in automatically. They have it in one digital form, we 
convert it into our format. And the author doesn't really need 
to do anything. That is about 40 percent of the articles.
    For the 60 percent remaining, the author does have to 
upload the manuscript to our site. But that process takes about 
10 minutes. So I would say 10 minutes in the course of 6 months 
of research, I would say that is reasonably easy.
    Mr. Clay. Pretty reasonable.
    Let me thank you, and thank all of the witnesses on all 
three panels who indulged us today, who gave of their time to 
come. I will say that public access to federally funded 
research was a different topic for me, but I certainly learned 
a little today.
    And with that, this hearing is adjourned. Thank you.
    [Whereupon, at 5:18 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
